June 13, 2003

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service Tracking of Investigative
         Workhours and Activity (Report Number SA-AR-03-003)

This report presents the results of our audit of the Postal Inspection Service Tracking of
Investigative Workhours and Activity (Project Number 03BG004OA000). This audit was
self-initiated. Our objective was to evaluate how the Postal Inspection Service tracks
direct workhours and activity conducted by inspectors during the course of an
investigation.

The audit revealed that Postal Inspection Service investigative workhours for jacketed
cases were adequately accounted for in the Inspection Service Data Base Information
System. Our audit also revealed the Postal Inspection Service was not able to identify
the total workhours related to conducting specific criminal investigations. This occurred
because management has not established a documented process requirement for
tracking all related workhours for jacketed cases, although 46 percent or 1.4 million
workhours of all criminal investigative workhours are expended in area cases used to
develop jacketed cases for investigation.

We recommended the Postal Inspection Service develop and implement a documented
process to track total related workhours using existing Inspection Service Data Base
Information System capabilities, allowing the Postal Inspection Service the ability to
determine total related workhours expended for individual area cases that resulted in
jacketed cases. Postal Inspection Service management disagreed with our
recommendation. The Office of Inspector General (OIG) views the disagreement of this
recommendation as unresolved and plans to pursue it through the formal audit
resolution process. Management’s comments and our evaluation of these comments
are included in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Michael L.
Thompson, director, Inspection Service Audits, at (703) 248-2100 or me at
(703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: James J. Rowan, Jr.
    Larry C. Visos
    Susan M. Duchek
Postal Inspection Service Tracking of Investigative                      SA-AR-03-003
 Workhours and Activity



                                     TABLE OF CONTENTS
    Executive Summary                                                        i

    Part I

    Introduction                                                             1

         Background                                                          1
         Objective, Scope, and Methodology                                   2
         Prior Audit Coverage                                                3

    Part II

    Audit Results                                                            4

         Adequate Accounting for Jacketed Investigative Workhours            4

         Postal Inspection Service Not Able to Attribute All Workhours       5
          Expended for Specific Criminal Cases
         Recommendation                                                      7
         Management‘s Comments                                               7
         Evaluation of Management’s Comments                                 8

    Appendix. Management’s Comments                                         10




                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                    SA-AR-03-003
 Workhours and Activity


                                    EXECUTIVE SUMMARY
Introduction                    This report presents the results of our self-initiated audit of
                                the Postal Inspection Service tracking of investigative
                                workhours and activity. Our overall objective was to
                                evaluate how the Postal Inspection Service tracks direct
                                workhours and activity conducted by inspectors during the
                                course of an investigation.

Results in Brief                The audit revealed that Postal Inspection Service
                                investigative workhours for all reviewed jacketed cases
                                were adequately accounted for in the Inspection Service
                                Data Base Information System. Based on audit work
                                conducted and testimonial evidence, we determined the
                                Postal Inspection Service adequately accounted for
                                investigative workhours contained in related jacketed
                                investigations in the Inspection Service Data Base
                                Information System.

                                The audit also revealed the Postal Inspection Service was
                                not able to identify the total workhours involved in
                                conducting specific criminal investigations. At least
                                46 percent of investigative workhours classified as area
                                cases were not being individually tracked in the Inspection
                                Service Data Base Information System. This occurred
                                because management had not established a documented
                                process for the tracking of total related investigative
                                workhours.

Summary of                      We recommended the Postal Inspection Service develop
Recommendation                  and implement a documented process to track total
                                investigative workhours for jacketed cases using existing
                                Inspection Service Data Base Information System
                                capabilities, which would allow the Postal Inspection Service
                                to determine workhours expended in area cases that
                                resulted in jacketed cases.

Summary of                      Postal Inspection Service management disagreed with the
Management’s                    recommendation. Management was concerned that any
Comments                        estimates of attributed workhours expended in the
                                preliminary stages of an investigation to a specific jacketed
                                case would degrade the integrity of their internal reporting
                                systems. Further, management stated that a




                                                      i
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                    SA-AR-03-003
 Workhours and Activity



                                recommendation in a prior Office of Inspector General (OIG)
                                audit report, Postal Inspection Service Fraud Against
                                Business and Consumer Programs and the Customer
                                Initiative Group (Report Number SA-AR-03-001, dated
                                March 31, 2003) contradicted our current recommendation.
                                Management’s comments, in their entirety, are included in
                                the appendix of this report.

Overall Evaluation of           Postal Inspection Service management’s comments were
Management’s                    not responsive to the recommendation. We recommended
Comments                        the Postal Inspection Service develop and implement a
                                process to track total investigative workhours, because
                                during our audit we noted that approximately 46 percent of
                                investigative workhours classified as area cases were not
                                being individually tracked in the Inspection Service Data
                                Base Information System. Management believed estimating
                                area case workhours would degrade the integrity of their
                                internal reporting systems even though they currently do not
                                have a system in place to account for these preliminary
                                workhours as they relate to specific jacketed cases.

                                Additionally, management stated that a recommendation in
                                a prior OIG audit report, Postal Inspection Service Fraud
                                Against Business and Consumer Programs and the
                                Customer Initiative Group contradicted our current
                                recommendation. Management said the OIG
                                “recommended that the Inspection Service not jacket an
                                excessive number of cases that bore no material outcome.”
                                There is no contradiction by the OIG between this report
                                and the prior report. In the report referred to by
                                management, the OIG recommended increasing
                                management’s oversight of the case selection process and
                                ensuring that the Inspection Service Manual was adhered to
                                regarding fraud allegations selected for investigation.

                                In addition, management stated “area cases provide the
                                Inspection Service with the means to more efficiently and
                                effectively avoid jacketing an excessive number of cases
                                that bear little or no results.” This statement is not reflective
                                of our recommendation to develop a process to track total
                                investigative workhours.




                                                      ii
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                SA-AR-03-003
 Workhours and Activity



                                We view the disagreement on this recommendation as
                                unresolved and plan to pursue it through the formal audit
                                resolution process.




                                                      iii
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                  SA-AR-03-003
 Workhours and Activity


                                      INTRODUCTION
Background                      The Postal Inspection Service is authorized by federal laws
                                and regulations to investigate and enforce over 200 federal
                                statutes related to crimes against the United States mail, the
                                Postal Service, and its employees. To assist in carrying out
                                these responsibilities, the Postal Inspection Service
                                classifies its criminal investigative work under various
                                programs, such as security, fraud, internal crimes, and
                                external crimes. In carrying out these investigations, postal
                                inspectors use two types of cases to document their
                                investigative activities: area cases and jacketed cases.

                                Area cases were used as needed to conduct preliminary
                                investigations within each criminal program. Inspectors
                                charged workhours to area cases when reviewing
                                allegations and complaints that had not reached a point
                                where an inspector determined it was possible to prosecute
                                or take administrative action against a suspect.

                                A team leader assigned to a criminal program may use an
                                area case that every team member charges workhours to
                                while conducting preliminary investigative activity related to
                                a specific criminal program. These inspectors normally
                                conduct preliminary investigative activity of multiple
                                allegations or complaints under this area case. In addition,
                                an inspector may discontinue or suspend a preliminary
                                investigative activity without formally documenting the
                                activity.

                                Area cases represented almost half of the Postal Inspection
                                Service’s criminal investigative efforts for criminal programs.
                                From October 1, 1997, through September 30, 2002, postal
                                inspectors charged approximately 47 percent of criminal
                                investigative hours to area cases, with the remaining
                                53 percent of criminal investigative hours charged to
                                jacketed cases.

                                Jacketed cases were used when an investigation under an
                                area case resulted in evidence gathered to support potential
                                administrative or prosecutive action against a suspect.
                                When an investigation is jacketed, the Inspection Service
                                Data Base Information System generated a new case
                                number, allowing the Postal Inspection Service to track
                                investigative workhours and activity.


                                                      1
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                                   SA-AR-03-003
 Workhours and Activity




Objective, Scope, and             Our overall objective was to evaluate how the Postal
Methodology                       Inspection Service tracked direct workhours and
                                  activity conducted by inspectors during the course of
                                  an investigation. To accomplish this objective, we used
                                  a statistically selected sample and reviewed
                                  1581 investigations closed between September 1997
                                  and August 2000.2 Specifically, we reviewed associated
                                  criteria, closed case files, Postal Inspection Service data
                                  base case summary reports, and program workhours. We
                                  also interviewed inspectors at the Detroit Division. We also
                                  reviewed Inspection Service Data Base Information System
                                  reports and interviewed Postal Inspection Service
                                  headquarters personnel from the Finance and
                                  Administrative Services Division, Security Division, and the
                                  Career Development Division. As a result of discussions
                                  with Postal Inspection Service management, we interviewed
                                  inspectors at the New Jersey, Chicago, and Florida
                                  Divisions.

                                  The audit was conducted from October 2002 through
                                  May 2003 in accordance with generally accepted
                                  government auditing standards. We reviewed management
                                  controls as they related to the audit objective. Specifically,
                                  we reviewed policies and procedures related to the
                                  investigative activity to ensure Postal Inspection Service
                                  management’s program objectives were met. We further
                                  assessed the accuracy of data contained in the Inspection
                                  Service Data Base Information System and determined that
                                  it was sufficient to support our audit conclusions. This
                                  determination was made based on our investigative case
                                  file reviews and Postal Inspection Service officials using the
                                  system as a management tool. We discussed our
                                  conclusions and observations with Postal Inspection Service
                                  management officials and included their comments, where
                                  appropriate.




1
   Our original sample included 161 closed case files. We did not review three closed case files because Postal
  Inspection Service officials jacketed these cases in error. The three cases should not have been jacketed as fraud
  against business or consumer case files.
2
   The sample was selected from a universe of 2,124 individual cases that were closed between September 13, 1997,
  and August 29, 2000. The sample used a stratified design; we selected 80 cases for fraud against consumers and
  81 cases for fraud against businesses. The sample selection for cases was random within each stratum. No
  projections were made.


                                                         2
                                              Restricted Information
Postal Inspection Service Tracking of Investigative                                 SA-AR-03-003
 Workhours and Activity



Prior Audit Coverage            The Office of Inspector General’s (OIG) management
                                advisory report entitled, Review of Area Case Investigations
                                (Report Number OV-MA-00-003, dated August 25, 2000),
                                revealed opportunities to strengthen the management and
                                oversight of area case investigations. We determined that
                                supervisory oversight was generally limited to team leaders
                                who used informal procedures to manage area case
                                investigations at the sample divisions reviewed. In addition,
                                Postal Inspection Service division and headquarters
                                management did not have an effective means of monitoring
                                area case investigative activities.

                                The OIG suggested that the chief postal inspector issue
                                guidance and implement a system to manage and track the
                                status of area case investigations. Management agreed
                                with our suggestions and has made some reporting
                                requirement changes to the area case management
                                process.




                                                      3
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                SA-AR-03-003
 Workhours and Activity


                                       AUDIT RESULTS
Adequate Accounting             Postal Inspection Service investigative workhours for all
for Jacketed                    reviewed jacketed cases were adequately accounted for
Investigative                   and we determined that required documentation was
Workhours                       appropriately contained in the Inspection Service Data Base
                                Information System. Additionally, testimonial evidence
                                obtained from inspectors during the audit indicated these
                                team leaders conducted proper and timely reviews of cases
                                and related workhours. As a result, the Postal Inspection
                                Service can adequately account for the investigative
                                workhours performed by postal inspectors on related
                                jacketed criminal investigations.

                                U.S. Postal Inspection Service Manual, Chapter 5,
                                Section 530 – Mail Fraud, provides fraud inspectors with
                                procedures and techniques for prioritizing and jacketing
                                cases, and performing mail fraud investigations. During our
                                review, there was adequate management oversight and
                                adherence to the case jacketing procedures in accounting
                                for jacketed investigation workhours as outlined in the U.S.
                                Postal Inspection Service Manual.

                                Based on work conducted for our audit report entitled,
                                Postal Inspection Service Fraud Against Business and
                                Consumer Programs and Customer Initiative Group (Report
                                Number SA-AR-03-001, dated March 31, 2003), and
                                testimonial evidence from inspectors interviewed at
                                Postal Inspection Service headquarters and the Detroit,
                                New Jersey, Chicago, and Florida Divisions, we determined
                                the Postal Inspection Service adequately accounted for
                                investigative workhours contained in related jacketed
                                investigations in the Inspection Service Data Base
                                Information System.




                                                      4
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                                 SA-AR-03-003
 Workhours and Activity



Postal Inspection                The Postal Inspection Service was not able to identify the
Service Not Able to              related area case workhours expended to jacket individual
Attribute All                    cases3 because at least 46 percent of investigative
Workhours Expended               workhours classified as area cases were not being
For Specific Criminal            individually attributed to jacketed cases. This condition
Cases                            existed because Postal Inspection Service management
                                 had not established a requirement for the tracking of area
                                 case investigative workhours that related directly to a
                                 jacketed case.

                                 In fiscal years (FY) 2001 and 2002, postal inspectors spent,
                                 on average, at least 3 million direct workhours or $170
                                 million4 each year conducting investigative activities in their
                                 criminal programs area and jacketed cases. During the
                                 same period, at least 46 percent of those direct workhours,
                                 or 1.4 million workhours or $79 million5 each year were
                                 used conducting investigative activities in criminal programs
                                 area cases.6

                                 In addition, our review of case files from calendar year
                                 1997 to 2000 identified 5 of 158 cases that were jacketed
                                 under an incorrect subject code and these cases were
                                 actually an area case investigation rather than a jacketed
                                 investigation. These five cases totaled 12,203 workhours of
                                 the 32,642 workhours for the 158 cases. Although, we were
                                 not testing to determine if cases were jacketed in error, it
                                 could be an indicator that workhours spent conducting area
                                 case investigations could be higher than 46 percent.7




3
  A jacketed case signifies the initiation of a formal criminal investigation.
4
  The hourly rate used in the projected cost was based on the year-to-date average inspector hourly rate of
   $56.55 obtained from the National Payroll Hours Summary Report for accounting period 06-2001, ending
   February 23, 2001.
5
  Ibid.
6
  An area case is used as needed to conduct preliminary investigations. Inspectors charge workhours to area cases
  when reviewing allegations and complaints that have not reached the point where an inspector determines it is
  possible to prosecute or take administrative action against a subject.
7
  The five cases were: 581-1139138-FB(1), 581-1217820-FB(1), 544-1239670-FC(1), 544-1255396-FC(1), and
  545-1298511-FC(2).


                                                        5
                                             Restricted Information
Postal Inspection Service Tracking of Investigative                                                  SA-AR-03-003
 Workhours and Activity



                                    As a result of our benchmarking with the:

                                        •   Internal Revenue Service – Criminal Investigation
                                            Division

                                        •   Federal Bureau of Investigation

                                        •   Bureau of Alcohol, Tobacco and Firearms

                                        •   Drug Enforcement Agency

                                    we determined these agencies8 spent as little as 5 percent
                                    and no more than 20 percent of their workhours conducting
                                    preliminary investigative activities prior to initiating a formal
                                    criminal investigation. In addition, three of the four agencies
                                    accounted for these workhours in the jacketed cases. In
                                    contrast, postal inspectors spent 46 percent of their
                                    investigative workhours under area case investigations
                                    when reviewing allegations and complaints without
                                    attributing any of those workhours to a specific jacketed
                                    case.

                                    Postal Inspection Service management attributed the
                                    46 percent of preliminary investigative workhours, as
                                    compared to other law enforcement agencies, to their
                                    decentralized investigative management style. This
                                    decentralized style allowed the individual team leaders to be
                                    accountable for the amount of workhours the inspectors
                                    spent on preliminary investigations in area cases.

                                    The U.S. Postal Inspection Service Manual did not contain
                                    specific details regarding the accountability of area case
                                    investigative workhours related to jacketed cases. As a
                                    result, the total amount of workhours involved in conducting
                                    a specific criminal investigation from area case workhours to
                                    jacketed case workhours were not required to be accounted
                                    for.

                                    Although inspectors adequately documented workhours
                                    expended on conducting jacketed criminal investigations,
                                    the workhours spent on individual area case investigations

8
     Our benchmarking also included the Social Security Administration – OIG and the United States Secret Service;
    however, it was determined that these agencies do not record the amount of workhours they expend on preliminary
    investigations.


                                                           6
                                                Restricted Information
Postal Inspection Service Tracking of Investigative                                  SA-AR-03-003
 Workhours and Activity


                                were not tracked as they related to a specific jacketed case.
                                As a result, the Postal Inspection Service cannot identify the
                                total workhours involved in conducting specific criminal
                                investigations from area case, to jacketed case, and final
                                disposition.

                                We recognize the Postal Inspection Service had a
                                decentralized investigative management style with
                                18 separate divisions that are responsible for performing the
                                mission of the Postal Inspection Service. Based on
                                testimonial evidence from Postal Inspection Service team
                                leaders, we were able to determine the individual team
                                leaders are adequately managing the area case
                                investigative process and have an understanding of how
                                preliminary investigative workhours are charged. However,
                                headquarters management is ultimately responsible for the
                                accountability of investigative workhours. We have
                                concluded that the span of control between headquarters
                                and the team leaders in the 18 field divisions was too broad
                                for the Postal Inspection Service to fully assess the
                                workhour relationship between area case investigation
                                workhours and related jacketed cases.

                                We believe allowing inspectors to estimate area case
                                workhours used in developing a jacketed case would
                                provide management with more effective tracking of
                                investigative workhours and allow for improved resource
                                allocation without significant cost. We recognize this
                                process will not be exact. However, it will provide
                                management a better measurement tool than previously
                                existed.

Recommendation                  We recommend the chief postal inspector:

                                        1. Develop and implement a documented process to
                                           track total investigative workhours for jacketed
                                           cases using existing Inspection Service Data
                                           Base Information System capabilities, which
                                           allows the Postal Inspection Service the ability to
                                           determine total workhours expended for individual
                                           area cases that resulted in jacketed cases.

Management’s                    Postal Inspection Service management disagreed with the
Comments                        recommendation. Management was concerned that any
                                estimates of attributed workhours expended in the

                                                      7
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                    SA-AR-03-003
 Workhours and Activity


                                preliminary stages of an investigation to a specific jacketed
                                case would degrade the integrity of their internal reporting
                                systems. Further, management stated that a
                                recommendation in a prior OIG audit report, Postal
                                Inspection Service Fraud Against Business and Consumer
                                Programs and the Customer Initiative Group (Report
                                Number SA-AR-03-001, dated March 31, 2003) contradicted
                                our current recommendation.

Evaluation of                   Postal Inspection Service management’s comments were
Management’s                    not responsive to the recommendation. We recommended
Comments                        the Postal Inspection Service develop and implement a
                                process to track total investigative workhours, because
                                during our audit we noted that approximately 46 percent of
                                investigative workhours classified as area cases were not
                                being individually tracked in the Inspection Service Data
                                Base Information System. Management believed estimating
                                area case workhours would degrade the integrity of their
                                internal reporting systems even though they currently do not
                                have a system in place to account for these preliminary
                                workhours as they relate to specific jacketed cases.

                                Additionally, management stated that a recommendation in
                                a prior OIG audit report, Postal Inspection Service Fraud
                                Against Business and Consumer Programs and the
                                Customer Initiative Group contradicted our current
                                recommendation. Management said the OIG
                                “recommended that the Inspection Service not jacket an
                                excessive number of cases that bore no material outcome.”
                                There is no contradiction by the OIG between this report
                                and the prior report. In the report referred to by
                                management, the OIG recommended increasing
                                management’s oversight of the case selection process and
                                ensuring that the Inspection Service Manual was adhered to
                                regarding fraud allegations selected for investigation.

                                In addition, management stated “area cases provide the
                                Inspection Service with the means to more efficiently and
                                effectively avoid jacketing an excessive number of cases
                                that bear little or no results.” This statement is not reflective
                                of our recommendation to develop a process to track total
                                investigative workhours.




                                                      8
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                                SA-AR-03-003
 Workhours and Activity



                                We view the disagreement on this recommendation as
                                unresolved and plan to pursue it through the formal audit
                                resolution process.




                                                      9
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity


                     APPENDIX. MANAGEMENT’S COMMENTS




                                                     10
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     11
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     12
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     13
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     14
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     15
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     16
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     17
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     18
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     19
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     20
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     21
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     22
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     23
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     24
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     25
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     26
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     27
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     28
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     29
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     30
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     31
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     32
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     33
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     34
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     35
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     36
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     37
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     38
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                     39
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     40
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     41
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     42
                                           Restricted Information
Postal Inspection Service Tracking of Investigative                 SA-AR-03-003
 Workhours and Activity




                                                     43
                                           Restricted Information
